<html>
<title> - OVERSIGHT HEARING ON CONGRESSIONAL MAIL DELIVERY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
            OVERSIGHT HEARING ON CONGRESSIONAL MAIL DELIVERY

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

              Hearing Held in Washington, DC, May 8, 2002

                               __________


      Printed for the Use of the Committee on House Administration


                                 ______

80-008              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           STENY H. HOYER, Maryland
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California        JIM DAVIS, Florida
THOMAS M. REYNOLDS, New York
                     Paul Vinovich, Staff Director
                  Bill Cable, Minority Staff Director


    CONGRESSIONAL MAIL DELIVERY IN THE U.S. HOUSE OF REPRESENTATIVES

                              ----------                              


                         WEDNESDAY, MAY 8, 2002

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Doolittle, Hoyer, Fattah, and 
Davis.
    Staff present: Paul Vinovich, Counsel; Channing Nuss, 
Deputy Staff Director; Fred Hay, Counsel; Reynold 
Schweickhardt, Technical Director; Jeff Janas, Professional 
Staff Member; Bill Cable, Minority Staff Director; Sterling 
Spriggs, Minority Technical Director; Matt Pinkus, Minority 
Professional Staff Member; and Ellen McCarthy, Minority 
Professional Staff Member.
    The Chairman. The committee will come to order.
    Today, the Committee on House Administration is holding an 
Oversight Hearing on Congressional Mail Delivery in the U.S. 
House of Representatives. There will be members that will be 
coming in and out during this hearing. With us today is 
Congressman Doolittle of California, and ranking member Mr. 
Steny Hoyer of Maryland is on his way.
    I will go ahead and begin just with a brief opening 
statement that I have.
    Today, of course, is May 8, 2002. It has been almost 8 
months since the devastating attacks of September 11 of 2001. 
It has almost been about 7 months since mail delivery to the 
House of Representatives ceased and our buildings were 
evacuated as a result of the anthrax that was introduced into 
our mail system.
    We all recognize that, as a result of these attacks, things 
will never be quite the same. We are now all forced to look at 
what has become routine processes with new eyes. Assumptions 
about the way we conduct business in the House of 
Representatives has also changed forever. I am sure all of us 
here today recognize that reality----
    Let me also be clear as we begin the hearing today that the 
efforts of so many of the individuals in this room and 
throughout our process, both in the House of Representatives 
and, more broadly, also for many people at the Postal Service 
as well as the private sector, that you all have worked 
tirelessly to respond to the new security realities to ensure 
that essential functions such as our mail delivery system 
continue to exist.
    In particular, I want to thank our CAO, Jay Eagen, and his 
staff who had to take a mail delivery process that had 
evaporated--it had worked well and had to completely reinvent 
the system to accommodate the concerns we are now faced with. 
We recognize what you and your staff have done, and the House 
deeply appreciates that.
    However, as we all convene here, there is a reason we are 
convening here today; and I have got to report that, regardless 
of all the efforts, the current mail delivery process is most 
certainly not meeting the critical needs of the Members of the 
House, our constituents, of the public at large due to the time 
frame from when it gets into the hands of the offices. I think 
we all know that that has to change. If we have been doing our 
best, we have got to get our heads together and do better. The 
current state of mail delivery in the House has simply got to 
be put on a faster path.
    I applaud also the patience of the Members of the House of 
Representatives and our constituents across the country as we 
work to perfect the process. Our patience, of course, is 
starting to wear thin. If you talk to Members--I am sure Mr. 
Doolittle and other members will have some comments about 
that--we have had 7 months of goodwill, and we now have to get 
some more results.
    The past 10 days the committee has received mail that was 
postmarked from the month of October. I actually brought a 
couple of pieces today. I am told these are being sold on eBay. 
But I got a couple of pieces of mail, and they are postmarked 
December, and our postmark in here is May the 3rd on those 
pieces.
    The other problem, too, a lot of the Members receive 
invitations to events that are important to the constituents 
that invite us and information about urgent constituent matters 
which have occurred or bills or invoices that have become 
months delinquent. Those communications are critical.
    There are also constituents who send us some very important 
information--they have a problem with Social Security or other 
nature of a problem, and they need a response. People talk 
about computers. Not everybody in the hinterland has access to 
a computer, frankly. Otherwise, we could e-mail each other. So 
the mail is important.
    So I suggest that we need to think outside the box today 
for different solutions. Maybe we need to think in terms of 
reinvention, rather than simply modification. I will leave that 
to the experts, but, whatever it is, we have got to push 
ourselves to solve this problem, to do it quickly.
    I know here at the Committee on House Administration, with 
the help of our Chief Administrative Officer, Mr. Eagen, we are 
in the process of exploring digitization of the mail as an 
alternative to our current process, which may prove to be a 
viable solution as we move into the future. We are determined 
to have a digitized mail pilot program in place soon, at least 
speaking on behalf of myself, before implementation of such an 
alternative means of mail delivery is still months away and we 
can't afford to continue to do business as we are at this time.
    I am very anxious again to hear from our witnesses, so I 
will close at this time. Before I do, I want to remind our 
witnesses today that certain details related to the subject 
matter of this hearing on mail process may have security 
implications. As a result, it is necessary that all 
participants exercise discretion as to the specific procedural 
details or facts that you may offer as both part of your 
testimony and in response to questions that may be asked of you 
during the hearing. This is a public hearing. As such, I ask 
you to keep this concern in mind.
    With that, I want to turn to my colleagues and see if 
anybody else has an opening statement.
    Mr. Doolittle. I have no opening statement.
    Mr. Reynolds. Mr. Chairman, I have no opening statement.
    The Chairman. We will move on to the testimony.
    Giving testimony will be Jay Eagen, our Chief 
Administrative Officer of the House of Representatives. Also 
attending and available to answer questions will be Carl 
Johnson, Senior Account Manager of Pitney Bowes. Also giving 
testimony, Sylvester Black, Manager of Capital Metro 
Operations, and that would be United States Postal Service. 
Also attending and available to answer questions will be 
Michael Cronin, Manager of Operations Support of Capital Metro.

  STATEMENTS OF JAY EAGEN, CHIEF ADMINISTRATIVE OFFICER, U.S. 
 HOUSE OF REPRESENTATIVES, ACCOMPANIED BY KARL JOHNSON, SENIOR 
 ACCOUNT MANAGER, PITNEY BOWES; AND SYLVESTER BLACK, MANAGER, 
   CAPITAL METRO OPERATIONS, ACCOMPANIED BY MICHAEL CRONIN, 
     MANAGER, OPERATIONS SUPPORT, CAPITAL METRO OPERATIONS

    The Chairman. With that, I will start with Mr. Eagen.

                     STATEMENT OF JAY EAGEN

    Mr. Eagen. Good morning, Mr. Chairman, Mr. Doolittle, Mr. 
Reynolds. With me is Karl Johnson, as the chairman indicated, 
from Pitney Bowes Management Services. Mr. Johnson is the on-
site manager for the House mail operations.
    I am pleased to be able to provide you with information and 
answer your questions concerning the mail processing operation 
at the House. With my testimony, I intend to cover the 
following issues:
    First, an overview of the House mail delivery process prior 
to the anthrax attack; secondly, what the House mail system 
encountered last fall and during recovery as well as what 
decisions were made and when; third, the current mail delivery 
process for the Postal Service and Pitney Bowes here at the 
House; fourth, actual results of this new mail delivery process 
both for the Postal Service and for Pitney Bowes at the House, 
including results of numerous field tests of those processes; 
and, finally, our plans for the future.
    Prior to the anthrax discovery in the House and Senate 
buildings in October of last year, the U.S. Postal Service and 
the House mail operation were focused solely on speed and 
accuracy. Of course, mail was x-rayed for bombs and protected 
from theft, but these precautions did not significantly add to 
the processing time.
    Since October, two additional factors have been added: 
sterilization of the mail and quarantined storage of the mail 
until it can be delivered. Concerns about biological 
contaminants in the mail--including anthrax and other 
pathogens--resulted in significant changes in the mail delivery 
process at the House.
    All the incoming, outgoing and internal mail processes for 
the House, with the exception of postal windows, have been 
handled by Pitney Bowes Management Services since February, 
1996. Pitney Bowes processes U.S. Postal Service mail, 
including first-class letters and flats, third-class mail, 
packages and registered mail. Packages from shippers other than 
the U.S. Postal Service--and by that I mean Federal Express or 
United Parcel Service--were delivered by the shippers 
themselves to House offices. All mail and packages were x-rayed 
at the U.S. Capitol Police facility on V Street, S.E. A picture 
of this facility is on the charts before you.
    Pitney Bowes sorted all mail for the House in a location in 
the basement of the Ford House Office Building, and a picture 
of that facility is before you as well.
    Pitney Bowes tracked its delivery cycle times and generally 
delivered mail 24 hours after it was received from the U.S. 
Postal Service.
    Before you now is a timeline for the anthrax recovery that 
the House experienced last fall.
    The House stopped all mail deliveries on Friday, October 
12, 2001, as part of a new mail security screening process that 
included a quarantine. A letter containing anthrax spores was 
opened in Senator Daschle's office on Monday, October 15. The 
House side of the Capitol and House Office Buildings were then 
closed the following Wednesday, October 17, to test for the 
presence of anthrax. Several machines used to x-ray mail at the 
P Street U.S. Capitol police facility were found to be 
contaminated with anthrax on October 18. By Friday, October 19, 
teams of government biohazard experts were performing 
environmental assessments of House Office Buildings and mail 
facilities. Anthrax contamination was found on a strapping 
machine in the Ford Building mail room on October 21. Several 
days later, contamination was found in several Member offices 
in this building, the Longworth Building.
    The Capitol then reopened on October 23; and the Cannon and 
Rayburn buildings reopened on Thursday, October 25. The 
Longworth building reopened on Monday November 5, except for 
the four Member offices where contamination was found. The Ford 
building reopened on Friday, October 26, but the south wing of 
the first floor remained closed until January, 2002. And, 
finally, the four remaining Member offices in Longworth 
reopened in January, 2002.
    In summary, four Member offices in this building and the 
first floor of the Ford building were displaced for 15 weeks. 
The P Street off-site facility is scheduled to reopen later 
this month. It will have been closed for 28 weeks.
    Before you now is a chart that shows the mail delivery 
recovery process the House has gone through.
    Delivery of first-class letters and flats--and this is a 
flat, larger sized envelope--resumed in early December of last 
year. Delivery of packages from local shippers resumed in mid-
December; and delivery of packages from national shippers, Fed 
Ex and UPS, resumed on a limited basis in early January, 2002. 
This was delivery of packages from known sources.
    A decision was made that it was no longer appropriate to 
conduct mail operations in an office building that houses 
several hundred House employees as well as the House Child Care 
Center. This committee approved an occupancy agreement for an 
off-site mail processing facility on November 9, 2001. The 
facility is located in Capitol Heights, Maryland; and the 
posters before you show a picture of this facility.
    Since October, 2001, the U.S. Postal Service has 
implemented additional procedures to ensure the safety of 
government officials and employees, including the House and 
Senate. Among the new safety procedures, mail is irradiated 
before it is delivered to Federal Government offices for ZIP 
Codes beginning 202 through 205. Here at the House, mail and 
packages have been accepted back on the campus in phases.
    Before you is a chart that shows the mail process flow.
    After a citizen posts a mail item to a mailbox, the Postal 
Service receives all government ZIP Code mail at its Brentwood 
facility in Washington, D.C., from 300 regional centers from 
around the Nation. It is packaged and shipped to Bridgeport, 
New Jersey, for irradiation and then returned to Brentwood. At 
Brentwood, it is unpackaged and a 24-hour off gassing aeration 
process occurs. It is then shipped to the Postal Service's D 
Street government mail facility where it is sorted by ZIP 
Code--meaning government ZIP Codes--and then delivered to each 
government agency. The Postal Service has estimated this 
process takes between 7 and 10 days.
    Upon arrival at the House facility, the first-class mail is 
clipped, and it is sampled. The samples are sent to a military 
lab for testing that takes 72 hours. And to be clear, the 
testing itself takes 72 hours. The samples also have to be 
transported to that lab. The mail is quarantined until the 
results are received. Upon clearance, the mail is sorted and 
delivered to House offices. This process has been estimated to 
take between 4 and 5 business days.
    Packages are handled through a different process at the 
House. Prior to October, 2001, again, packages were delivered 
directly to House offices by the shipper, Fed Ex or UPS. After 
October, at the request of the House, shippers held packages 
until the first of January. Following approval of a policy by 
this committee in December, packages from national shippers 
were accepted beginning in January this year.
    Packages are no longer delivered by the shipper to House 
offices but are being delivered by Pitney Bowes employees. 
Packages are also being put through a process to make sure they 
are safe before being delivered to House offices. Packages from 
the U.S. Postal Service were accepted beginning March 24 of 
this year under a policy approved by this Committee on House 
Administration. Only packages approved by the recipient are 
being delivered.
    Overall, the volume of mail coming to the House today is 
considerably smaller than prior to October, 2001. A 29 percent 
reduction has been seen in today's mail levels as compared to 
the months in 2001 prior to anthrax contamination. A 37 percent 
reduction is evident in 2002 levels, when compared to the same 
period for the year 2000.
    Before you is a chart that shows the April mail receipt 
trend. Analysis of the first-class mail received by the House--
and this is mail that the Postal Service has indicated to the 
House is current mail--shows that a portion of the mail is 
postmarked outside of the 10-day Postal Service estimate, 
although recent trends show improvement.
    Before you now is a chart that shows the samples for April 
30, last week. The sample of first-class mail delivered on 
April 30 shows only 12 pieces postmarked within 10 days, while 
more than half of the sample postmarked 60 days or longer. The 
average age of the postmark for April 30 was 121 days. 
Conversely, last Friday, May 3, a sample of first-class mail 
delivered by the Postal Service and described as current mail 
shows the average postmark was 9 days.
    The House is also measuring its cycle times once the mail 
is delivered to the House. Turnaround is measured from the 
point that the envelopes arrive here at the House and delivered 
to the House customer. For the month of April, you will see a 
chart before you that shows you a week-by-week progress. The 
total turnaround was 4.7 business days for the month of April.
    Looking to the future, our goal is to expedite the mail 
House delivery process without compromising the safety of 
Members and staff. Methodologies we are currently pursuing 
include improvements to testing and mail sorting so it can be 
delivered more quickly, and implementation of a digital mail 
pilot for the House, as the chairman referenced.
    Focus areas for House improvement of mail processing time 
include pursuing an alternate lab and alternate technologies to 
identify contaminants without the lengthy lab process now 
required. Pitney Bowes is about to begin the next phase of the 
off-site facility that will further automate and improve the 
package delivery process.
    In addition, the CAO is pursuing an initiative that has the 
potential to dramatically shrink the volume of hard mail coming 
into House offices. We call this initiative digital mail. Under 
this approach, mail would be received and opened at an off-site 
facility, and a digital copy would be made with a scanner. A 
digital copy would then be forwarded to House offices 
electronically within 24 hours of receipt.
    We intend to complete specifications for a pilot program by 
next Friday, May 17, and immediately issue a request for bids 
from industry. Upon receipt of industry responses, a 
recommendation will be made to the committee for the pilot. The 
proposed digital mail solution will integrate with 
contamination testing and safety procedures as well as with 
correspondence management systems, or CMS systems, in Members' 
offices. The selected vendor will electronically deliver 
digital mail to Member offices participating in the program 
within 24 hours of receipt and will deliver necessary originals 
after the 3-day necessary quarantine period.
    Especially when it comes to mail, I am frequently asked the 
question, when is it going to get back to normal? I 
consistently respond by saying, we are not getting back to 
normal. We are moving forward to normal.
    Accelerating the mail delivery process while keeping the 
mail safe for Members and staff is an enormous challenge 
because threats can come in many forms and it is extremely 
difficult to trace the offender.
    Before you is a chart of the record of one Ted Kaczynski. 
You may recall that it took almost 20 years to catch the 
Unabomber, from his first bombing in May of 1978 to his arrest 
in April of 1996. His terrorist track record included periods 
of up to 6 years between bombings and also up to four bombings 
in a single year.
    In 1982, cyanide was placed in Tylenol that resulted in 
seven deaths and led to the national recall of the medication. 
This intrusion led to the addition of tamper prevention seals 
on nearly all over the counter medications and vitamins and 
even some food products. The perpetrator of the Tylenol 
poisoning has never been apprehended, and the $100,000 reward 
offered by Johnson and Johnson has never been claimed.
    In sum, the world we face was made more complex by the 
events of September 11 and October, 2001. Just as we can't 
bring back those who were lost in New York, at the Pentagon or 
at the Brentwood mail facility, it is very unlikely we will 
return to old delivery mail methods. Instead, we need to 
aggressively improve and automate more secure solutions so 
constituent and other important and time sensitive 
communications are received as quickly and accurately as 
possible and seek new alternative means that in the long run 
may well be more effective. Speaking for myself and the 
employees of the CAO, we won't rest until we have accomplished 
that job.
    Thank you, Mr. Chairman.
    The Chairman. We thank you for your testimony.
    [The statement of Mr. Eagen follows:]

    [GRAPHIC] [TIFF OMITTED] T0008A.001
    
    [GRAPHIC] [TIFF OMITTED] T0008A.002
    
    [GRAPHIC] [TIFF OMITTED] T0008A.003
    
    [GRAPHIC] [TIFF OMITTED] T0008A.004
    
    [GRAPHIC] [TIFF OMITTED] T0008A.005
    
    [GRAPHIC] [TIFF OMITTED] T0008A.006
    
    [GRAPHIC] [TIFF OMITTED] T0008A.007
    
    [GRAPHIC] [TIFF OMITTED] T0008A.008
    
    [GRAPHIC] [TIFF OMITTED] T0008A.009
    
    [GRAPHIC] [TIFF OMITTED] T0008A.010
    
    [GRAPHIC] [TIFF OMITTED] T0008A.011
    
    [GRAPHIC] [TIFF OMITTED] T0008A.012
    
    [GRAPHIC] [TIFF OMITTED] T0008A.013
    
    [GRAPHIC] [TIFF OMITTED] T0008A.014
    
    [GRAPHIC] [TIFF OMITTED] T0008A.015
    
    [GRAPHIC] [TIFF OMITTED] T0008A.016
    
    The Chairman. I defer to ranking member, Mr. Steny Hoyer.
    Mr. Hoyer. Thank you very much, Mr. Chairman.
    I apologize for being late. The Helsinki Commission is 
holding a hearing contemporaneously with this one, and the 
Foreign Minister of Portugal is now the chairman of the Office 
of the OSC, and the Counsel of Ministries was testifying. So I 
apologize to all of you for being late.
    I would like to make an opening statement, however, and, 
Jay, congratulate you for your excellent statement.
    Let me say to our witnesses, not one of us here today fails 
to appreciate the extraordinary circumstances that you have 
been forced to work under since all House mail deliveries were 
stopped on Friday, October 12, and a letter containing anthrax 
spores was opened on the Hill. Two postal workers, of course, 
lost their lives as a result of the cowardly attack. Many 
others were exposed to the hazard. Members of Congress and 
thousands of staff were displaced when the entire Capitol 
complex was temporarily shut down.
    I understand that the Brentwood postal facility is still 
shut down because it has not been decontaminated. As a result, 
some Postal Service employees are working in tents. Others who 
are sorting mail are sent to government facilities and are 
working in converted warehouses on V Street.
    I understand that the Postal Service as well as the House 
mail handlers have had to deal with a frightening and difficult 
set of circumstances and recognize that you are working hard 
and doing a good job, an outstanding job. Signs of progress 
which you referred to are encouraging. To paraphrase Mr. 
Eagen's statement, which he just gave, we may not be getting 
back to normal in processing congressional mail but we are 
trying to move forward to normal.
    I also want to make this observation, and I think every 
member of the committee will agree. Constituent service and 
timely communications are the lifeblood of public office. Show 
me a public professional to who fails to respond or is slow in 
responding to constituents needs and concerns expressed in a 
letter and I will show you someone who is not going to be here 
long. Some may grouse about the necessity of such 
responsiveness, but I think it demonstrates democracy's 
strength.
    As someone--Mr. Chairman, I know you have traveled 
extensively when the Iron Curtain existed and talked to 
literally thousands of citizens who had no thought that they 
could communicate with anybody in power and have anybody either 
listen and certainly, if they listened, they did not expect a 
response.
    A few years ago, so-called experts liked to talk about the 
paperless office of the future. Someday we may actually 
visualize that vision. Even if the paper does not get to all 
offices, as you pointed out, it may be digitized and get to our 
office, but there is going to be paperwork.
    Even with the ubiquity of e-mail, fax machines and other 
methods of communication, nothing gets our attention more than 
a heartfelt written letter from a constituent. That is true 
whether you are a freshman Member of Congress or you have been 
here for over 20 years. Thus, timely, responsive communications 
to constituents is not an option. It is an obligation and one 
that I know almost every Member embraces. In my office, I know 
that most of the mail we are receiving today was sent in mid-
April.
    You went through those charts very quickly, and we will ask 
questions when the question time comes. I am not sure that I 
fully understood as you went through it, because you went 
through it pretty quickly, specifically what they were saying.
    But we are still receiving mail that was postmarked in--
last year in December. Jim Moran at the legislative hearing, I 
think--Mr. Eagen, I know, was there--observed he was still 
getting Christmas cards, presumably mailed mid-December or 
later.
    So while I support the efforts and hard work of our 
witnesses here and the people you represent, I particularly 
want to hear your views on how we can work together to address 
this and other challenges that confront us. Congressional mail 
stream must continue to flow however that stream manifests 
itself at the point of receipt.
    Mr. Chairman, thank you very much for holding this hearing 
and thank you very much for being with us.
    Mr. Chairman, I know Mr. Davis indicated he wanted to say 
something, but he defers.
    The Chairman. I want to thank the ranking member and Mr. 
Davis and move on to Mr. Black.
    Also, on behalf of the Congress, I want to again thank the 
United States postal authorities and the postal workers. I was 
in Columbus, Ohio, touring the tremendous facility there.
    But, also, our sympathy goes out to the individuals that 
lost their lives and the people in the postal system that 
continue to process the mail and keep communications going in 
the United States.
    With that, I defer to Mr. Black.

                  STATEMENT OF SYLVESTER BLACK

    Mr. Black. Good morning, Mr. Chairman, and members of the 
committee.
    With me today is Michael Cronin, the Manager of Operations 
Support.
    We appreciate the opportunity to discuss the Postal 
Service's efforts to provide safe and timely mail service to 
Congress and Federal agencies in the wake of last fall's 
bioterrorism attacks.
    Like many American businesses, the Postal Service was hard 
hit by the events of September 11; and, like Congress, the 
Postal Service also suffered the direct results of 
bioterrorism. Individually and collectively, our organization 
found itself tested as never before. Tragically, two of our own 
were taken from us when the mail was used as an instrument of 
terror.
    Yet, through it all, the people of the Postal Service have 
maintained the world's finest postal system. Postal workers 
around the Nation stood united and continued on their daily 
rounds--in lower Manhattan, in New Jersey, in Connecticut and 
here in Washington, D.C., and in every location that became a 
potential target of this silent, insidious and deadly attack.
    I am proud of each one of them, but, as manager of Capital 
Metro, I am particularly proud of the dedication and 
performance of every postal employee in Washington, D.C. None 
have been more affected than they have. Their determination and 
performance through the difficult months of the fall were 
nothing short of heroic and represent the best of public 
service. I salute each and every one of them.
    Let me share for a moment a sense of immensity of the 
network that supports daily mail service for our Nation.
    Each day, almost 680 million pieces of mail enter our 
system through, literally, millions of entry points. This mail 
funnels through some 335 central processing locations that, in 
turn, feed 38,000 post offices, stations and branches that 
provide delivery to America's 138 million homes and businesses. 
It is a daunting and challenging proposition to protect a 
system so accessible and so ubiquitous against the threat of 
bioterrorism.
    However, as we have learned, the very lives and health of 
postal employees, the American people, their government leaders 
and members of the media can be placed in jeopardy if we do not 
take the proper actions to limit the vulnerability--and the 
extent--of any future terror attacks using the mail.
    When we learned that the mail stream had been used to carry 
anthrax, we acted quickly. Our first concern was the health of 
our employees and our customers. We worked closely with public 
health officials to address the medical needs of our employees, 
and we informed the public of the potential risks as they 
became known.
    We closed contaminated facilities, including the Brentwood 
processing facility here in Washington. We tested others and, 
when necessary, we cleaned them. We provided our employees with 
masks and gloves. We changed maintenance procedures to limit 
the potential spread of anthrax in our buildings. We acquired, 
as quickly as possible, the means to sanitize mail that might 
be tainted with anthrax. And the Postal Inspection Service 
joined with the FBI and other law enforcement agencies in the 
ongoing investigation of the crime. It was our goal to do all 
we could to make sure that the mail we were bringing to 
America's homes, businesses and government officials presented 
no threat.
    Let me go over in more detail how this process has evolved 
with regard to mail deliveries for Congress and the Federal 
agencies in Washington, D.C.
    When our tests found that the Brentwood facility was 
contaminated, we closed it. Medication was made available to 
our employees, and they were reassigned to other locations. 
Both incoming and outgoing mail was rerouted to other 
processing facilities in both Virginia and Maryland.
    Working with law enforcement officials, other Federal 
agencies and Congress, we identified certain mail as ``target'' 
mail. This was the mail that could not be delivered until we 
were confident that it did not present a risk to the 
recipients. This target mail included mail addressed to 
Congress and Federal agencies in Washington, D.C.
    At the same time, more than one million pieces of 
potentially contaminated mail was trapped in the Brentwood 
facility. We could not move any of this mail until we had 
identified and implemented a safe and efficient method of 
sanitizing it. We worked quickly--and we worked carefully--to 
obtain access to the technology that would do this. With the 
input of the best experts available, we identified irradiation 
as the only technology both readily available and effective at 
neutralizing anthrax spores from the mail. We contracted for 
irradiation services at a facility in Ohio and, later, at 
another one in New Jersey.
    I would like to tell you about the irradiation process in a 
little more detail. Irradiation, as of today, represents the 
only process used by the Postal Service to sanitize mail. We 
will continue for the foreseeable future to irradiate letters, 
flats and packages addressed for government agencies in the 202 
to 205 ZIP Codes.
    For those of you who currently receive mail in the targeted 
ZIP Codes, we are preparing this mail for transportation to 
Bridgeport, New Jersey. There the mail undergoes irradiation.
    After irradiation, the mail is returned to a temporary 
processing site where it is sprayed with an odor neutralizer 
called Odor Away. This is a nonhazardous, widely available 
commercial product that is commonly used in hospitals. After 
spraying, we ventilate the mail for up to 24 hours before it is 
sorted and processed for delivery. Processed mail is then 
transported to the appropriate Federal facility for delivery by 
the agency's mail unit.
    When we first began the irradiation of mail, only small 
volumes of mail were able to move through our facilities each 
day. But, with experience, we were able to improve our 
processing and treat greater volumes of mail. By the first week 
of February, the backlog had been eliminated. As larger amounts 
of mail could be treated, larger amounts of mail were made 
available to Congress and to Federal agencies for delivery. We 
were able to eliminate the bottleneck of backlogged mail on the 
processing side.
    Unfortunately, this meant that the mail volume received by 
some Federal agencies and by Congress exceeded the capacity of 
their internal distribution operations. We stored that 
processed, treated mail until the internal recipients were able 
to accept it. We are no longer storing any mail for any 
government agency.
    Within the context of this ``new normal''--with incoming 
mail for addresses in the ZIP Code ranges of 202 through 205 
being diverted to Bridgeport, New Jersey--the additional 
transportation and processing time generally adds 4 to 7 days 
to the regular delivery times.
    To this point, a number of staff members from this 
committee toured our temporary processing facility on Friday, 
May 3. They were able to see that the sanitized mail being 
processed for delivery was generally postmarked April 26 or 27, 
well within the 7 to 10 days the Postmaster General told 
members of our oversight committee.
    Again, I should point out this is only for targeted mail. 
All other mail for homes and businesses in the District of 
Columbia is being delivered normally. In fact, despite losing 
their primary processing and distribution center, Capital 
District postal employees continue to provide mail service to 
the residents of Washington, D.C., near the pre-October 21 
levels.
    We are continuing to work with manufacturers of irradiation 
technology to identify the best processes and protocols for 
handling and processing the mail both safely and efficiently. 
The electronic beam systems we purchased will be deployed in a 
configuration optimized for mail. This limited deployment will 
allow us to accurately evaluate the operational impacts, costs 
and effects on mail and its contents.
    The Postal Service has the obligation--and the privilege--
of providing every American in every community with safe, 
universal access to a system of affordable, dependable mail 
service. The people of our Nation rely on the mail. They 
welcome it. They trust it. We cannot let that change.
    After all, the Postal Service, alone among carriers, is a 
vital public service provided to them by their government. It 
is crucial that we maintain our national infrastructure so we 
can continue to protect that trust for all users, urban and 
rural, rich and poor, business and consumer, private citizen 
and public servant. This is the promise of universal service, 
and it is the only reason that the Postal Service exists.
    Mr. Chairman, let me again express my gratitude for the 
congressional assistance we have received to protect the 
Nation's postal system from bioterrorism. We look forward to 
your support and leadership and that of every member of this 
committee as the Postal Service continues its essential work of 
binding this great Nation together.
    Thank you, Mr. Chairman. I will be happy to answer any 
questions.
    The Chairman. I want to thank the gentleman for his 
testimony.
    [The statement of Mr. Black follows:]

    [GRAPHIC] [TIFF OMITTED] T0008A.017
    
    [GRAPHIC] [TIFF OMITTED] T0008A.018
    
    [GRAPHIC] [TIFF OMITTED] T0008A.019
    
    [GRAPHIC] [TIFF OMITTED] T0008A.020
    
    [GRAPHIC] [TIFF OMITTED] T0008A.021
    
    [GRAPHIC] [TIFF OMITTED] T0008A.022
    
    The Chairman. On Monday of this week, the House Inspector 
General documented that over 17 percent of the mail received at 
our Capitol Heights mail facility had postmarks dating from 
March of this year or earlier. Based on the mail volume for the 
day, this means over 3,000 pieces didn't meet that 7-to-10 day 
performance standards that the United States Postal Service has 
indicated is being met. Of this mail, nearly 10 percent, or 
approximately 1,600 pieces, had postmarks from last year. So I 
just wanted to see the consistency with the information that 
all the backlog, has been processed through the system.
    So I am wondering, has it all been processed through the 
system, the backlogged mail, and where would the old mail be 
coming from?
    Mr. Black. There are several avenues. One, our backlog, 
there is no backlog in our possession. But what has happened is 
that there is a hygiene--an address hygiene problem with the 
ZIP Codes of 202 to 205.
    The Chairman. I am sorry.
    Mr. Black. Address hygiene as far as machines reading it 
and addresses not being consistent with the rest of America, 
for instance, Congressman and that it is Washington, D.C. There 
are issues that we have always encountered. In fact, when 
Brentwood was up, we had what we called a Government Mails Unit 
within the Brentwood facility; and, in that unit, what we did 
was take a lot of human oversight to make sure that the mail 
was properly addressed or properly given to the right unit.
    The other thing that is compounding everything today is 
that a lot of the agencies--what we call--this constitutes a 
loop mail situation where mail kind of goes to the wrong place 
and has to be reintroduced back into the system. Well, what 
happens if all the other agencies that received missent mail--
if they are not diligent in reintroducing it back into the 
system, you do see tails. You see mail with long days of 
delivery.
    The Chairman. So the 3,000 pieces that didn't meet the 7-
to-10 day could be pieces then you are saying that were 
misdelivered or didn't have particular, correct addresses.
    Mr. Black. Yes, sir.
    The Chairman. And that would account for the 3,000.
    Mr. Black. It would account for some of it.
    And Mr. Eagen would probably tell you that we are not quite 
current here either with all the backlog of mail that we have 
turned over.
    Mr. Eagen. I believe the reference the chairman had was to 
the current USPS mail delivery truck which is what the IG was 
sampling yesterday and today is what the Postal Service has 
characterized to us as current mail. It is not sampling other 
categories of mail.
    The Chairman. And you mentioned the loop, 20 percent of the 
mail is in the loop. Is that what----
    Mr. Black. I am not sure of the exact percentage, Mr. 
Chairman.
    Mr. Eagen. Mr. Chairman, just to supplement in terms of the 
Members' offices in terms of the statistics you were referring 
to, I think that there are probably three explanations for what 
a Member sees.
    For example, I have statistics for Mr. Hoyer's office for 
yesterday for what your mail was; and we have three mail 
deliveries in the morning. In the first delivery, you got six 
pieces of mail: Four were April postmarks; one was November; 
one was January. In the mid-morning delivery, you got 11 
letters: Ten were April postmarks; one was January. Then, in 
the afternoon, the 2:30 delivery, you got a total of nine 
items: Five were April postmarks, three were December, and one 
was October.
    What we are seeing on our side of things, I have three 
reasons for delays.
    Mr. Hoyer. The October guy is really ticked at me.
    Mr. Eagen. Probably.
    One is, as I explained in my testimony, we consciously 
brought the mail back to campus in phases. We did so for 
security reasons, and we did so for capacity reasons.
    Again, the Ford mail room was lost. P Street facility is 
still closed. We sent a proposal to the committee on November 
9, 3 weeks after the anthrax, for leasing of a new facility in 
Capitol Heights, but that was an empty warehouse. We had to 
rebuild all the capacity inside that building. So we brought it 
back in phases.
    The last phase of approval was for Postal Service packages 
on March 24, a little over a month ago. There is naturally a 
backlog built up behind that both for the Postal Service who 
was holding it for us and then when we received those trailers, 
and we have been working that backlog off.
    Secondly, there are categories of items where we made a 
conscious decision, in consultation with personnel of the 
committee and talking to Member offices, items like old 
magazines and periodicals, people said we are not in a rush to 
get those. Make the priority the current stuff, the current 
first-class mail. So in some cases, especially with regard to 
old periodicals and magazines, we have been feeding those in 
over time. So that would sometimes identify when a Member gets 
older things. We have been feeding those in slowly, instead 
prioritizing the first-class mail.
    Our statistics are showing, from what the Postal Service is 
saying, current mail there is a portion of that mail that has 
significantly old postmarks in some cases, and I can't offer an 
explanation for that.
    The Chairman. I just wanted to--I got two perfectly 
addressed letters here, and they are to Jeff Janas, and they 
are here in the Longworth building. One is postmarked December 
12, the other is February 5, and they came in May 3. So also I 
looked down in our office, our personal office and have been 
watching the postmarks, and it was pretty consistent. It might 
have changed this week.
    But last week, if mail came in, it was the 18th of--I think 
it was March, and I received it last Friday. It was 
consistently--the next day was the 19th of March. It was 
consistently 1 month. So, somewhere along the line, we see the 
backlogs, but it can't be done if this is coming in. I mean, I 
got these two letters perfectly marked. So if it is a 
misdelivery, that would be a problem. And I think that is what 
Members are seeing. So when does the backlog get cleared up?
    We also stopped using the Ohio--Lima facility, I was told, 
around the 11th of April. I was told we were stopping using the 
Ohio facility and we are using the New Jersey facility because 
there was no backlog. Can anybody answer that?
    Mr. Hoyer. Before they answer, let me make an observation. 
I am just told in our office this morning we got two 2001 
letters, whatever. They were perfectly addressed. I think there 
is a question pending. I just added to the example.
    The Chairman. And the bar codes aren't blacked out. They do 
that for loop mail--and these aren't blackened out, which meant 
that they work. So any Members----
    Mr. Hoyer. Both letters were in the same position.
    Mr. Davis. I think repetition is important here, because it 
demonstrates the magnitude and consistency. This is a letter 
that came in from December and appropriately addressed. This 
shows the level of confidence that people have in writing to 
us. I have seen your statistics as to how the mail has 
dwindled, and if I were writing out there--writing to my 
representative, I wouldn't have much confidence in how much 
impact the mail is going to have; and that is something that is 
difficult to cure over time. So my question, which they have 
asked as well, is, is there anything we are not doing that we 
could be doing to take care of this backlog of that type of 
mail, and are there any tools we need to give to you that you 
don't already have that would help you do more with respect to 
the backlog?
    The Chairman. Anybody like to answer that? Any volunteers?
    Mr. Eagen. I guess I want to be clear with regards to the 
House. As far as the House is concerned, we don't have a 
backlog.
    The Chairman. When you say we don't have a backlog, what 
does that mean?
    Mr. Eagen. We are processing the current first-class mail 
right into the 4.7 day cycle.
    The Chairman. Once you receive it.
    Mr. Eagen. Once we receive it. That is the current State of 
the House mail operations for first-class mail and flats.
    The Chairman. Just to make this clear, no matter what the 
date was that you received it--in other words, if you received 
this and the date was December 12 and you received it, this 
took 4 days to cycle to us is what you are saying?
    Mr. Eagen. Yes.
    Mr. Doolittle. Mr. Chairman, before you receive it, does it 
go through like a 10-day sanitation cycle or something? Is that 
in there?
    Mr. Eagen. Not at the House.
    Mr. Doolittle. Before--all the mail, before it gets into 
your 4.7 day cycle, goes through a very prolonged process as 
well, right? And that is how many days?
    Mr. Black. It adds 4 to 7 days. So we could safely say it 
adds 10 days to the process.
    Mr. Doolittle. So 10 days plus 4.7.
    Mr. Black. Right.
    Mr. Fattah. Mr. Chairman, as the ranking Democrat on postal 
affairs, this is a subject matter of which I am familiar.
    I want to make one thing clear, because I heard a number of 
the comments, and I know what my colleagues are talking about, 
and I don't want it to be mischaracterized. None of us want you 
to do anything that would not provide safe and safety to the 
Members and staff here, notwithstanding any impatience about 
the delivery of the mail; and I want to compliment all that has 
been done, both internally and through the U.S. Postal Service, 
of what has been a major concern in terms of the anthrax 
situation.
    But the issues in relationship to mail delivery to these 
ZIP Codes here in D.C. are complicated issues. I think what you 
are saying to us is that, in terms of once the--once we get 
possession of the mail here, that you are delivering it within 
the timetable. The question is what the Post Office is doing in 
terms of your timetable; and if you are saying it adds 10 days, 
is that with the closing of the Ohio facility? Does that 
shorten the time, lengthen the time? And are there other things 
we can do to help expedite it?
    But, again, none of this is a desire for you to cut any 
corners, because I would rather not get any of the mail if it 
was going to jeopardize my staff, colleagues and their health. 
I am sure I speak for all of my colleagues that that is not--we 
are not trying to push for corners to be cut. To the degree 
that people can send us a letter, hopefully, in a way in which, 
you know, it is safe and that you can get it to us in a 
reasonable amount of time.
    I just wanted to put that on the record because I didn't 
want the press to misconstrue the comments that are taking 
place by the chairman and ranking member and others about your 
concerns.
    The Chairman. I have got a couple of questions, and I will 
yield to the rest of the members. I also want to follow back 
with this, and we want obviously safety for your staff, our 
staff of the House. I think we are trying to, in my mind, 
trying to get down to a point.
    The question I wanted to ask--to get, that is, in the most 
ideal situation--and I know we have one facility irradiating 
now. If I mail today from my home in St. Clairsville, Ohio, to 
myself in the Capitol, what is the maximum amount of time, 
going through the normal, safe process, that I will get that 
letter? And I would like to hear from both of you.
    Mr. Black. From the Postal Service's viewpoint or 
standpoint, we are saying 7 to 10 days. Now that letter from 
Ohio would go in our logistics network and be delivered to the 
Washington, D.C., area. In the Washington, D.C., area, we are 
massing the mail for ZIP Codes 202 to 205 to be sent to 
Bridgeport, New Jersey, for sanitization. So those trucks are 
leaving Monday through Friday, taking mail to Bridgeport to be 
irradiated.
    The process is adding--I believe Ohio would be in our 2-day 
standard. So it would be 2 days anyway. So we think that--what 
we are saying is that the addition is a day here, a day to get 
to Bridgeport, a day back process; and then we turn it over to 
the House mail unit.
    The Chairman. And then that adds 4.7 days.
    Mr. Eagen. That has been our track record to date.
    Factor in, of course, that there are no mail deliveries in 
the House on Saturdays and Sundays. So there is another 
potential 2 days that are going to be factored in, depending on 
when that cycle hits.
    The Chairman. The mail is all delivered by truck. It is not 
flown, correct?
    Mr. Black. Correct.
    The Chairman. The costs of flying would be prohibitive, I 
would assume.
    Then let me ask another question. If we brought an 
irradiation machine here off-site somewhere, how many days 
would that process take if I mailed a letter from Ohio to 
myself here?
    Mr. Black. Theoretically, it would cut out our 
transportation or the bulk of our transportation time, so it 
would probably shave a day to 2 days off the process.
    The Chairman. So we would still look then--a day to 2 days. 
We would still be looking at 8 days and your 4.7.
    And, correct me if I am wrong, what I am hearing is that, 
no matter what we do, if we put that machine across the street, 
we are going to have 8 to 10 days--no, we are going to have 12 
days to get our mail, is that a correct assumption, no matter 
what we do ?
    Mr. Eagen. I think there is opportunity, but it is months--
if not a year--away. The scientists and research folks are 
telling us that they think there is good reason to believe that 
the sampling that presently--the test that takes 72 hours could 
be cut to 24 hours, but that is not immediately at hand.
    The Chairman. Now with digitization, though, as I 
understand it in talking to several companies, at least five or 
six, that mail could be taken from Brentwood, delivered to the 
digitization company, and that mail could be up within a 2-day 
period, I guess, safe to say, on-line for members to access, as 
I understand it. That is one of the reasons, I think, at least 
from my perspective, we need to look at that as a 2-day 
service.
    Mr. Doolittle. Would you yield for a question?
    So under the digitization proposal, they wouldn't go 
through all this sanitation process?
    Mr. Black. It would. It would still--at least our plan is 
now that mail would go through the irradiation process of the 
Postal Service.
    The Chairman. Let me ask this question: If the company 
says, give me the mail, give me the mail. You don't have to do 
anything with it. We will take care of it at our end. And they 
would have something safe and secure, because they obviously 
don't want to have their employees or their business go under. 
Now if that happened, then that is direct mail delivery, if 
that scenario is possible. Otherwise, you would have to still 
irradiate the mail and give it to a company to digitize. You 
would still be looking at about 11 days, I guess.
    Are you done?
    Mr. Doolittle. Yes.
    Mr. Davis. There is just one cost factor to that. Of 
course, the Postal Service is encumbering the cost of the 
irradiation, and if we were to pay for that the House would 
have to cover that part of the process.
    The Chairman. If we gave it to a digital company.
    Mr. Eagen. Yes. Assuming that they would do the 
sterilization before they digitized it.
    The Chairman. It would be in the cost of----
    Mr. Eagen. Exactly.
    The Chairman. Right now, the Post Office is encumbering the 
irradiation. You don't want to bill us.
    Mr. Black. We would like to.
    Mr. Davis. I just want to go back to what I was describing 
as the backlog issue, to be more specific. It seems to me there 
is some mail, and it is still happening, that I would describe 
as 2001 mail. Christmas cards are probably the best 
illustration. And I just want to understand from you all where 
does that bottleneck exist? Is part of the process at the 
United States Postal Service? Is it here, Jay, inside the House 
Office Building? Are we doing everything we can possibly do to 
get this December, 2001, mail and the like into our hands as 
quickly as possible and do you have all the tools you need to 
do that?
    Mr. Eagen. Yes, I do think we do have the tools.
    Again, as I explained earlier, there is a portion of mail 
that, because of the policies that we have adopted, came to us 
in large bulk quantities. At this point in time, that is almost 
exclusively packages and periodicals. First-class mail is now 
current at the House, and the portion--there is a portion that 
comes in that is described as current mail that has those kinds 
of postmarks on it.
    Mr. Davis. Well, that is my question. With respect to this 
big quantity of mail that is sitting out there, which is not 
entirely--some of which is first-class mail, what is the 
process we are using for getting that into the offices as 
quickly as possible? Because, obviously, it is still coming in, 
and it is dribbling and drabbling in.
    Mr. Fattah. Would the gentleman yield?
    The Chairman. This was just handed to us. This was from 
Congressman Charles Taylor, who is chairman, as you know, of 
the Appropriations Subcommittee; and these are just an entire 
batch he just received. These are from his district, and they 
are dated February and December, and they were in the mail 
today.
    Mr. Fattah. If I understand, you are just saying that when 
the mail gets here in the House, it is current in terms of the 
4-day delivery time frame. Now when you get it, it could be 6 
months old, but you are delivering it within 4.7 days, right?
    Mr. Eagen. I am saying that the trucks that come to us on a 
daily basis from the Postal Service are described to us as 
current mail.
    Mr. Fattah. And you are getting it to members under 5 days 
under your current scenario, but it has nothing to do when the 
mail was actually sent. This goes to the fact that it could be 
mail from a very long time ago, depending on how long it was in 
the system. But it is not a problem with the House. It may be a 
problem with the Postal Service. But in terms of the House and 
the Chief Administrative Office, you are delivering it at a 
current pace, except for these old periodicals.
    Mr. Eagen. Periodicals and packages.
    Mr. Davis. So I guess the question then is directed to Mr. 
Black of the United States Postal Service. Do you have a huge 
quantity of mail? We know how challenging your job is and you 
are still playing catch-up, that you are going through to get 
to Mr. Eagen and the House of Representatives--again, I am 
referring to these first-class letters of December. What is the 
process you are using from a timing standpoint and what can we 
do to help speed up that process?
    Mr. Black. Well, sir, the issue is--and being respectful to 
Mr. Eagen--is that 3 weeks ago we gave them 15 trailers of mail 
that dated back to January that we had sealed as early as 
January, which really put us in the heart of the dilemma that 
we are currently going through. I don't think that our protocol 
was good enough that that mail was segregated, that it was only 
periodicals or only bulk business. I think that what we are 
going to find is that when those trailers are completely worked 
out and we get the rest of the Christmas cards and the October 
mail that is commingled in there and I think once we work 
through that, I think we are going to find a lot of this old 
mail is going to disappear.
    We currently have no backlog trailers at all in the Postal 
Service' possession, and it is not--again, if you take that 
statement on face value, what it is saying is that what we get 
in today goes out today. Now the problem being is that the 
Office of Social Security discovers that they have got a 
container of mail that has been sitting in their basement for 6 
months, they can reintroduce that mail back into the system.
    And they could have a container of mail that has been there 
for 6 months that doesn't belong to them because of some of the 
things you are seeing on the cards.
    Every letter that you see where they block out the bar code 
is a mistake. It is a mistake. And what we have to do, the only 
way--because of the great strides we have made in automation 
with our equipment, there are fewer and fewer hands that touch 
the mail. So it is conceivable where our biggest mistake was in 
this entire process--early on we trusted everything to 
automation. So it is conceivable that in January, December, 
November, that a piece of mail could have been reradiated 
multiple times if a human being did not go through and catch 
that, and that is what we have concentrated on since March--the 
first of March, where we actually put people back in the 
process so we can go through. Every one you see crossed out is 
crossed out by a person who says this is loop mail that either 
misread on the automation, or it was directed to the wrong 
place. So we have concentrated on cutting down, but we can only 
do that if it is reintroduced back into the system.
    The Chairman. If I could just for one--this mail that I 
have got, Mr. Taylor's and mine and yours, none of it is 
blackened out on the bar codes, and, I mean, I just wanted to 
stress that. If it was all blackened out, we would know it 
was----
    Mr. Black. Right.
    Mr. Hoyer. Jay, I understand it takes 4.7 days, of which 3 
days or 2 plus days, very close to 3, is the airing out and 
detection process.
    Mr. Eagen. Right.
    Mr. Hoyer. If we treated the mail that was delivered to us 
from the post office as okay, how long would it take under 
those circumstances to get to the Member's office?
    Mr. Eagen. I would estimate 24 to 36 hours if you 
eliminated the sampling and testing process.
    Mr. Hoyer. So we are looking at 1 to 1.5 days for in-house 
handling of mail, and the additional 3.2 days is attributable 
to airing out, testing at Fort Detrick and receiving, in 
effect, a clearance.
    Mr. Eagen. Not airing it out, sir. The testing solely. It 
is sampled, put in quarantine until the lab results come back.
    Mr. Hoyer. All right. Now, Mr. Black, I have talked to 
General Potter, and obviously one of the issues here is that we 
are receiving literally millions of pieces of mail. We have, of 
course, identified no anthrax, as I understand it, since 
October. Am I correct?
    Mr. Black. Correct.
    Mr. Hoyer. So that we are incurring an extraordinarily high 
cost for, in effect, processing, sanitizing and testing clean 
mail?
    Mr. Black. Yes, sir.
    Mr. Hoyer. Now, I agree with Mr. Fattah that it is very 
nice to say, you know, we have only got four letters, and they 
killed two people at the Postal Service, Mr. Curseen and Mr. 
Morris. And I want to say something. I was one of those--I 
don't know how many of you did--went down to D.C. General 
Hospital with a lot of folks that were in line from the Postal 
Service from Brentwood waiting to get either advice and counsel 
or medication, and they showed extraordinary courage and 
resolve. I didn't speak to one--and I must have spoken to over 
100 people on 2 days that I visited down there and walked the 
line and talked to the doctors and talked to the medical 
personnel that were receiving them. I didn't talk to anybody 
who said that they weren't going to stay on the job with the 
Postal Service. They weren't interested in going back to 
Brentwood obviously, and we weren't letting them go back to 
Brentwood, but they were determined to do their jobs.
    In talking to General Potter, clearly if we can get to the 
technology that will detect prior to going through this entire 
process, that is where we want to get, so that we have, in 
other words, some technology. And some--you have some 300-odd 
central points, so we have got millions, so we couldn't deploy 
the technology in the box or the slot. That would not be a 
practical way to do it. But it seems to me that the way 
ultimately we are going to have to get at this, assuming we 
continue to have mail, is to have a technology that detects at 
the input time as opposed to processing millions of pieces of 
mail that have not been found to have anything wrong with them.
    Can you tell me, Mr. Black--maybe you are not the proper 
person to answer this--but where we are on the quest for that 
detection technology and input as opposed to processing through 
the--as I am sure most of the members of the committee, I don't 
know whether it was Mr. Curseen or Mr. Morris, he was standing 
at a door away from the machinery. What we presume happened--am 
I correct, Mr. Black, that at the point in time the mail was 
squeezed, the spores came out? The door was opened, and there 
was an outdraft, and he was in the outdraft and obviously took 
a breath at this point in time. That is how estranged he was 
from the particular letter that was infected with the spores.
    So, I mean, obviously this is an extraordinarily virulent 
and dangerous material. So, Mr. Fattah is right. We all want to 
be careful for everybody who is working for us, and forget 
about the Members. You know, they take the risk, but I have got 
young people in my office who open mail, handle it and transmit 
it to me.
    But where are we on the technology of detection?
    Mr. Black. Well, unfortunately, Congressman, I am not the 
one to ask.
    Mr. Hoyer. I presumed that--my pipeline to the postal 
gurus, of course, is sitting behind you, Mr. King. Mitch tries 
to keep all of us informed. I don't know whether he has any 
information on that, but, Mr. Chairman, it seems to me that we 
really need to focus on the research dollars for detection 
capability, because if at the 38 or 40 central centers from 
these millions of entry points can detect at that point in time 
what we presume is going to be an extraordinarily tiny, tiny 
percentage of possibly infected mail, we can handle 99.999 
percent of the mail in a fashion that will get to that 24- to 
36-hour turnaround at our facility and do the 2- or 3-day 
delivery of which Mr. Black talks.
    The postal department, Mr. Chairman, has gone from first 
class mail throughout the United States in the last 8 to 9 
years from somewhere in the neighborhood of 65 to 80 percent 
on-time delivery to where now they are consistently throughout 
the country--in my district they are 95 percent on-time 
delivery of first class mail. They have done an extraordinary 
job in facilitating the flow of mail in a timely fashion. This 
anthrax thing kicked everybody in the head, and so to get back 
to that extraordinary performance, we need to find out at the 
input level, not at the processing and output level, which is 
what we are now doing--at the input level, where the danger 
exists.
    I know you have got a note from Mitch King.
    Mr. Black. Right. And we could have Tom Day, our vice 
president of engineering. There are some pilots going on, and 
he would be the one that is knowledgeable enough to tell us how 
that is working. They are doing some testing.
    Mr. Hoyer. Jay, and then I am going to let others have 
questions because I went on too long, but do you have any 
comment on that, and have we looked at that? I know it is 
postal department responsibility. And by the way, you talked 
about billing us. I frankly think it is the Federal 
Government's responsibility, ladies and gentlemen, to make the 
postal department whole for the extraordinary cost that they 
have incurred, just as we made the airlines whole. You know, we 
did billions of dollars for the airlines. We need to make sure 
the postal department, through no fault of its own has incurred 
a very substantial cost, be reimbursed for that cost as, in 
effect, an act of terrorism that we are going to try and 
compensate them for. But, Jay, do you have a thought on that?
    Mr. Eagen. The Senate and the House have both been 
participating in a task force that was established by the 
Office of Homeland Defense with the White House Office of 
Science and Technology Policy, and the Postal Service is a 
member of that. That was the group that certified the radiation 
as the processing solution, and that same group is remaining in 
place to look at the alternative science solutions in the hope 
of finding them both on the front end, the middle end and the 
back end. The challenge, though--just one challenge is--
remember, we are looking for more than anthrax, and so that 
testing has to be capable of looking for more threats than just 
what happened before.
    The Chairman. The voting bells have been called, so I want 
Mr. Doolittle----
    Mr. Hoyer. I understand that, but detection has to be 
broader than anthrax.
    The Chairman. Mr. Doolittle.
    Mr. Doolittle. Thank you, Mr. Chairman.
    So you are currently testing for more pathogens than just 
anthrax?
    Mr. Eagen. That is correct.
    Mr. Doolittle. How many more?
    Mr. Eagen. As the chairman indicated, we are hesitant to 
say.
    Mr. Doolittle. Okay. I will note, too, we are getting 
Christmas cards every other day still in our office. The zip 
code you mentioned, 2----
    Mr. Black. 202 through 205.
    Mr. Doolittle. That is the White House, executive branch, 
Congress and the judicial branch, right?
    Mr. Black. Yes, sir.
    Mr. Doolittle. And, Mr. Eagen, the 4.7 days, you said some 
1.3 or something is due for further sampling of mail. Did I 
understand you to say that right?
    Mr. Eagen. What I said was that it is 72 hours for the 
testing part of that, for the 5-day window.
    Mr. Doolittle. Well, but the post office is doing all the 
sterilization. Are we doing this on top of what they are doing?
    Mr. Eagen. That is correct.
    Mr. Doolittle. And that is felt to be necessary?
    Mr. Eagen. Yes, sir, it is, because, again, we are looking 
for multiple pathogens----
    Mr. Doolittle. Oh, all right. They are just doing it for 
anthrax, and you are----
    Mr. Eagen. Well, the radiation has been certified to 
sterilize against a number of biological threats, but in the 
case of anthrax and some others, it doesn't remove it from the 
envelope. The powder would still be there. The question is 
whether that powder is dead or not.
    Mr. Doolittle. Okay. You have a minute to talk about the 
charts?
    Mr. Eagen. Yes, sir.
    Mr. Doolittle. So looking at--I am looking at this one, 
average elapsed time between postmark date and delivery to 
House offices, and this is based on all of the mail. Or this is 
the sampling you have done?
    Mr. Eagen. Sample.
    Mr. Doolittle. And so you are saying that for mail received 
on May the 6th, that with the average day, the 23 days, right?
    Mr. Eagen. Right.
    Mr. Doolittle. Okay. May I just ask about the--and this has 
been a case for some time--don't we get--each of our offices 
gets five mail deliveries a day, is that right, or more?
    Mr. Eagen. Two deliveries and five pickups.
    Mr. Doolittle. Two deliveries and five pickups. And the two 
deliveries, is that because we get new shipments in so that you 
are doing a second delivery to respond to that, or is it just 
because you have to do that to deal with the volume of mail?
    Mr. Eagen. Well, we have different deliveries that are 
coming in, some from the Postal Service, some from UPS, some 
from Federal Express, so forth and so on. We also have stuff 
that is being processed through the sorting system all day 
long, so there is a volume to accommodate that.
    Mr. Doolittle. Okay. Thank you.
    The Chairman. Thank you.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Just one more time on the backlog. First class mail, 
December 2001, what I understood you to say, Mr. Black, is that 
recently you delivered a massive quantity of such mail to Mr. 
Eagen. So I guess my question to you, when you said earlier 
that you are current with the first class mail, which is a real 
tribute to your efforts, does that exclude this backlog that 
was recently delivered to you of a massive quantity?
    Mr. Eagen. We have three trailers sitting at the Southeast 
Federal Center. That is primarily packages and periodicals.
    Mr. Davis. Is there anything we can do to help you more 
expeditiously segregate the first class mail in that and get it 
into the offices as quickly as possible?
    Mr. Eagen. Well, that is why we have been measuring the 
current deliveries. The current deliveries of first class mail 
go to our facility at Capitol Heights, and our understanding is 
that is the current mail stream, and we are giving that the 
first priority. So it already is segmented.
    Mr. Davis. But I am asking about the mail that has been 
sitting there for several months now. That is not----
    Mr. Eagen. There is nothing sitting in our possession for 
several months.
    Mr. Davis. Okay. Well, Mr. Chairman, there is a conflict 
here in the testimony that we need to pursue further about 
where this backlog is and what can be done on top of everything 
else that is being done.
    Mr. Eagen. Of the three trailers that are sitting in the 
Southeast Federal Center, one of them was delivered the day 
before yesterday.
    The Chairman. But the other thing I would like to add here, 
and unfortunately we are running out of time, but I would--we 
did have it confirmed there were six trailers, and now we are 
told there are 15. So there are other conflicts we would like 
to----
    Mr. Hoyer. I just want to observe, on May 6th, as I 
understand the figures here, 29 of the approximately 290--a 
little less than 290--no. About 290, or 10 percent, were pre-
2001 or 2002. Now, if we receive between 15- and 18,000--I 
understand from Mr. Cable May 6th was a relatively light day. 
If that is the case, that means there are between 1,500 and 
1,800 letters per day that are 2001.
    Now, this is obviously--every Member, therefore, has 
examples, and I think what Mr. Davis is trying to get at is 
where have they been, and where are they, and how do we get to 
them to get rid of at least those 2001? The fact that we have 
advised, I think, all our constituents that we are not 
receiving mail, if you sent us a communication and you didn't 
get a response, e-mail or send another letter, do whatever, and 
actually we are having a lot of mail sent to alternative 
locations. I presume a lot of Members are doing that as well. 
But, Jay, I think that is the consternation you are hearing. 
Where are these 1,800 a day? You know, that is about 10,000 a 
week.
    Mr. Eagen. The statistics you are quoting, I understand, 
are the inspector general's sample from Monday----
    Mr. Hoyer. Yes.
    Mr. Eagen [continuing]. Of the Postal Service truck as the 
door was opened as it arrived at Capitol Heights, no storage on 
the part of the House. That was when the truck arrived at the 
House for delivery of first class and other mail items.
    Mr. Hoyer. Right. It came from somewhere, right? It came 
from the Postal Service.
    The Chairman. And there were 3,000 pieces.
    Mr. Hoyer. Where are these pieces? How do we--you say they 
are in the loop. Social security, you said, for instance, found 
some and put it back in the loop. Why in heaven's name did 
Social Security hold onto it that long?
    Mr. Black. Mike, do you want to take that?
    Mr. Cronin. Yes, Congressman Hoyer. What we found as we dug 
into this process is that a couple of things happened. There 
was a lot of confusion around the time that we closed the 
Brentwood facility, and I think that perhaps some of the mail 
rooms around the city were not aware of the fact there was a 
problem with the mail right away and continued to receive mail 
or to accumulate mail in their mail rooms.
    What we have seen over the last 6 months is that from time 
to time almost at random various agencies come to us and say, 
Postal Service, we have mail in our mail room that has been 
there since October or November. We would like to reinduct it 
in the system, even though you have delivered it to us, and 
make sure--because we don't know if it has been irradiated or 
not, and we want to make sure it is safe. And that has been 
going on for a few months.
    So those events when they happen, I can understand how the 
downflow of that event would be--there would be a sprinkling of 
old dates to various addresses within the city, but I am only 
aware of one case where there was a very significant amount of 
this mail, other than the mail that we were retrieving from P 
Street during the period February and March to reinduct in this 
process.
    Mr. Hoyer. Mr. Cronin, would you agree that 1,500 to 1,800 
pre-2002 letters coming to this--the House itself is a pretty 
large number of pieces of mail, particularly ones coming on a 
daily basis? We are talking about, you know, 7,500 to 10,000 a 
week.
    Mr. Cronin. Yes, I would. And one of the things I noticed 
in the data, Congressman, is that, you know, we had such 
disparate results in the 2 days that--where we were comparing 
performance, we went from 121 days in one sample to something 
like 11 days on the next sample. It raised a question in my 
mind--and I am no statistician, but there is a question in my 
mind about how projectable those results are.
    Mr. Hoyer. So you are saying this may not be an average, it 
may be an anomaly?
    Mr. Cronin. I am suggesting it may be an anomaly, yeah.
    Mr. Hoyer. However--and I know we have to go, Mr. Chairman. 
The problem with it being an anomaly is that so many people 
talk to Mr. Ney and I and other people on this committee who 
happen to be getting the anomaly, so it becomes relatively 
frequent incidents of an anomaly, and we really need to have, I 
think, Jay, with the post office and, Mr. Chairman, perhaps 
with the Speaker and Mr. Daschle urging every government agency 
through the executive department to make a search for any mail 
that may fall into this category, extricating it from its 
storage spot, getting it into this system, and getting this 
backlog, which is old mail--forget about when anybody receives 
it--old mail through the system and get us operating on April/
May mail.
    Thank you, Mr. Chairman.
    The Chairman. We have to go for the vote, but we are going 
to be forwarding a series of questions we need to put together 
and to get a proper response so we can get to the bottom of the 
issues that were raised today that weren't made clear. But we 
appreciate your testimony today.
    I ask unanimous consent the Members and witnesses have 7 
legislative days to submit material into the record and the 
statements and the materials be entered at the appropriate 
place in the record. Without objection, material will be 
entered.
    I ask unanimous consent that the staff be authorized to 
make technical and conforming changes on all matters considered 
by the committee at today's hearing. Without objection, so 
ordered.
    That will complete our business for today and the hearing 
on congressional mail delivery. The committee is adjourned. 
Thank you.
    [Whereupon, at 11:25 a.m., the committee was adjourned.]


</pre></body></html>
